           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


  CONTRACT WITH LOCKHEED MARTIN
   GOVERNMENT SERVICES, INC. FOR
     DIGITAL IMAGING SERVICES

    November 2008   A-04-08-18066




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                         SOCIAL SECURITY
MEMORANDUM

Date:   November 20, 2008                                                                Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Contract with Lockheed Martin Government Services, Inc., for Digital Imaging Services
        (A-04-08-18066)


        OBJECTIVE
        The objectives of our audit were to ensure (1) the services and related costs Lockheed
        Martin Government Services, Inc. (Lockheed), charged the Social Security
        Administration (SSA) under Contract Number SSOO-05-40013 adhered to the
        negotiated contract terms and applicable regulations and (2) SSA personnel properly
        monitored the contract.

        BACKGROUND

        Electronic Disability (eDIB) is a major SSA initiative to automate and improve the
        disability claims process. Under eDIB, an electronic claims folder is created for
        individuals applying for Disability Insurance benefits. Before the implementation of
        eDIB, the disability claims process involved gathering paper evidence and assembling
        the documents into a paper-based disability claims folder. The paper folder was then
        mailed to the SSA components responsible for processing the claim. 1 Using eDIB, SSA
        captures disability evidence electronically and stores it in an electronic claims folder.
        The electronic folder can be easily and instantly accessed by all components involved in
        processing a disability claim, thereby eliminating the delay involved with mailing paper
        folders between components.

        Under eDIB, any paper medical and non-medical evidence received to support a
        disability decision must be converted to a digital (electronic) image. To aid in this
        process, in August 2005, SSA entered into a 5-year Blanket Purchase Agreement
        (BPA) with Lockheed for nationwide scanning services. Under the BPA, Lockheed
        scans paper documents, creates quality digital images, and securely transmits the
        images to SSA. Lockheed also stores and destroys the imaged paper documents and

        1
         The components involved in the disability claims process include State disability determination services
        (DDS) and SSA’s field offices, Offices of Disability Adjudication and Review and Disability Processing
        Branches.
Page 2 - The Commissioner


protects the confidentiality of both the electronic images and the paper documents in its
custody. The cost of the scanning service over the 5-year period is estimated at about
$124 million. Table 1 details the contract costs during our audit period.

                          Table 1: Contract Costs by Service Period
                  Year         Contract Service Period                   Cost
                   1      November 2005 2 – August 2006                $22,047,459
                   2      September 2006 – August 2007                 $26,989,727
                   3      September 2007 – December 2007                $8,840,884
                                                     Totals            $57,878,070

RESULTS OF REVIEW

The services Lockheed provided and costs it charged SSA generally adhered to the
contract terms. Lockheed provided SSA with quality digital images of paper documents
in a timely manner. The unit prices charged to SSA agreed with the contract prices, and
the quantity of services billed agreed with the contractor’s production reports. Lockheed
submitted the invoices promptly, and SSA made timely and accurate payments. Finally,
SSA personnel properly monitored the contract.

However, SSA could save as much as $67,311 a month in shipping and related costs
by reducing the number of paper documents Lockheed is required to forward (send) to
SSA components and State DDSs. The paper documents being forwarded have
already been scanned, and the electronic images are available to their users. As such,
we believe shipping scanned paper documents—which may cost about $1.6 million over
the remainder of the contract—is unnecessary.

SSA COULD REDUCE SHIPPING AND RELATED COSTS BY NOT FORWARDING
PAPER DOCUMENTS THAT HAVE ALREADY BEEN SCANNED

SSA could save as much as $67,311 a month—or about $1.6 million over the remaining
2 years of the contract—by only shipping documents that DDSs and SSA components
definitely need to verify a digital image or add to a paper case file.

Lockheed creates digital images of all paper documents it receives. However, in certain
situations, Lockheed’s contract with SSA requires that it forward already-scanned paper
documents to a State DDS or SSA component. Most paper documents are forwarded




2
    Lockheed began providing services under the BPA on November 8, 2005.
Page 3 - The Commissioner


because SSA’s barcode 3 is missing or damaged or the barcode instructs Lockheed to
forward the paper document to the component that initially requested the information. 4
Because the digital image of these documents is available to SSA users, we believe
shipping the source paper documents to DDS and State components is unnecessary
and costly. In lieu of forwarding documents, Lockheed could store these documents
with other imaged documents for future reference, if needed.

Cost of Forwarding Documents with Missing or Damaged Bar Codes Could be
Reduced

SSA could save as much as $42,306 a month—or about $1 million over the remaining
2 years of the contract—by not forwarding paper documents that have already been
scanned, but had a missing or damaged barcode. Table 2 calculates the cost savings
that could be achieved by not forwarding these documents.

        Table 2: Cost Savings—Documents with a Missing or Damaged Barcode
    Average Monthly Cost for Shipping Paper and Other Documents 5                                  $69,605
    Percent of Forwarded Documents with a Missing or Damaged Barcode                                  62.6
    Monthly Cost Savings Before Destruction and Storage Costs to be Incurred
    from Not Forwarding Documents ($69,605 X 62.6 percent)                                        $43,573
    Less: Destruction and Storage Costs to be Incurred                                             $1,267
    Adjusted Monthly Contract Savings                                                             $42,306
    Number of Months Remaining on the Contract                                                         24
    Total Contract Savings ($42,306 X 24 months)                                               $1,015,344

SSA’s barcode, which should be included with all documents sent to Lockheed,
provides information to electronically identify the document. However, Lockheed
occasionally receives documents with no, or a damaged, barcode. When this occurs,
Lockheed is still required to scan the document and transmit the electronic image to the
responsible DDS or SSA component. To enable transmission, Lockheed manually
inputs the site location into its system.




3
  DDSs and SSA components are required to generate and include a barcode with all information
requests. The barcode allows Lockheed to electronically capture the DDS or component site (requesting
site), the claimant’s Social Security number, document type, disposition codes (instructs the routing of the
imaged or paper source document), and a document control number.
4
  Lockheed is also required to forward (1) original documents (such as an original birth certificate, driver's
license, and Social Security card) that must be returned to the claimant and (2) documents DDSs and
SSA components request from Lockheed’s storage. Combined, these items represent 0.4 percent of the
documents forwarded. We did not question the cost of shipping these documents.
5
 The average monthly shipping and related costs are based on the first 4 months of the third contract
service period—September through December 2007. We believe this period best represented the
current contract shipping costs.
Page 4 - The Commissioner


The DDS or component that receives the image indexes it to the claimant’s electronic
claims folder. To index the document, staff must verify the claimant’s Social Security
number, the document type and the evidence request number. Typically, DDSs and
SSA components verify this information using Lockheed’s electronic image, not the
forwarded paper document.

In conjunction with our audit, SSA’s Office of Operations (Operations) surveyed State
DDSs to determine whether the paper document was needed to verify Lockheed’s
manual inputs. In general, the survey found DDS staff never or rarely referred to the
forwarded paper documents. Rather, staff used the digital image—a copy of the paper
document. As such, Operations is considering a national pilot that would determine
whether these documents could be simply stored at the scanning facilities for future
reference.

In addition to the cost savings, storing the paper documents at the scanning facility
would reduce the risk of inadvertent loss of personally identifiable information that could
result from placing medical and non-medical evidence back into the mail system.

Costs of Forwarding Documents for Inclusion in Paper Folders Could be
Eliminated

SSA could save as much as $25,005 a month—or about $600,000 over the remaining
2 years of the contract—if DDSs and SSA components do not instruct Lockheed to
forward paper documents when a paper folder may be involved. Table 3 calculates the
cost savings that SSA could recognize if it implemented this practice.

        Table 3: Cost Savings—Documents for Inclusion in Paper Folders
  Average Monthly Cost for Shipping Paper and Other Documents                    $69,605
  Percent of Returned Documents for Inclusion In Paper Folders                      37.0
  Monthly Cost Savings Before Additional Destruction and Storage Costs to be
  Incurred from Not Forwarding Documents ($69,605 X 37.0 percent)                $25,754
  Less: Destruction and Storage Costs to be Incurred                                $749
  Adjusted Monthly Cost Savings                                                  $25,005
  Number of Months Remaining on the Contract                                          24
  Total Contract Savings ($25,005 X 24 months)                                  $600,120

When a paper claims folder exists, a DDS or SSA component can instruct Lockheed
(via the barcode) to forward the paper document to it for inclusion in the paper claims
folder. About 37 percent of all documents Lockheed forwarded was because of DDS’
and SSA components’ forwarding instructions. However, during our audit period, all
DDSs and all but two SSA components serviced by Lockheed had obtained SSA’s
approval to work in an electronic claims environment. As such, the DDSs and SSA
components no longer construct paper claims folders—although, for some older claims,
a paper folder may still be involved.
Page 5 - The Commissioner


SSA’s project manager also expressed concern with the significant number of
documents being forwarded per the barcode instructions. As a result, Operations asked
DDSs with an unusually high number of forwarded documents to determine whether
their barcode instructions were correct. At the time of our audit, one DDS had reported
that its barcode incorrectly included forwarding instructions. The DDS took action to
remove the forwarding instructions from the barcode. We also found one DDS that was
simply printing the document from the electronic file and placing it in the paper folder.
This practice would eliminate the need for Lockheed to forward documents.

We commend SSA for working with DDSs to identify documents that are unnecessarily
forwarded. To further reduce the cost of forwarding documents, we recommend that
SSA (1) ensure all DDSs and SSA components review the appropriateness of the
forwarding instructions in their barcode and (2) consider having DDSs and SSA
components print the evidence from the electronic file—in lieu of Lockheed forwarding
paper documents.

CONCLUSION AND RECOMMENDATIONS
In general, Lockheed complied with the contract and accurately billed SSA for the
services it provided. However, SSA could reduce costs incurred under the contract by
reducing the number of paper documents Lockheed is required to forward to DDSs and
SSA components. Specifically, SSA could save as much as $67,311 a month in
shipping and related costs by reducing the number of already imaged paper documents
that are unnecessarily being forwarded. Over the remaining 2 years of the contract,
SSA could save about $1.6 million in shipping and related costs. Accordingly, we
recommend that SSA:

1. Determine whether the requirement to forward all paper documents with a missing or
   damaged barcode to the responsible SSA component should be eliminated.
2. Ensure State DDSs and SSA components review the appropriateness of the
   forwarding instructions in their SSA-generated barcode.
3. Consider having DDSs and SSA components print the document from the electronic
   file, in lieu of Lockheed forwarding paper documents, when a paper claims folder is
   involved.

AGENCY COMMENTS AND OIG RESPONSE

SSA agreed with our recommendations. The Agency’s comments are included in
Appendix D.


                                                S
                                                Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Sampling Methodology
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                         Appendix A

Acronyms
BPA          Blanket Purchase Agreement
DDS          Disability Determination Services
eDIB         Electronic Disability
Lockheed     Lockheed Martin Government Services, Inc.
OIG          Office of the Inspector General
Operations   Office of Operations
SSA          Social Security Administration
                                                                         Appendix B

Scope and Methodology
In August 2005, the Social Security Administration (SSA) entered into a 5-year Blanket
Purchase Agreement (BPA) with Lockheed Martin Government Services, Inc.
(Lockheed), for scanning services to convert paper medical and non-medical
documentation into digital images as well as related services. The related services
include securely transmitting the images to SSA and protecting the confidentiality of
SSA’s paper documents and electronic images. The cost of the scanning service over
the 5-year period is estimated at about $124 million. Lockheed began providing
services under the BPA in November 2005. Our audit covered the period
November 2005 through December 2007.

To accomplish our objectives, we:

   Reviewed the contract and the contract modifications that applied during our review
    period.

   Reviewed pertinent sections of SSA’s policies and procedures, handbooks, and
    relevant Federal laws and regulations.

   Interviewed SSA and Lockheed personnel associated with the BPA.

   Reviewed Lockheed’s invoices and supporting documentation.

   Observed the contractor’s operations at each of the three scanning facilities, which
    included the receipt, preparation, and scanning of documents. We also observed
    the controls for the storage and destruction of documents containing personally
    identifiable information.

   Observed the physical security at each of the three scanning facilities.

For each invoice, we:

   Verified the type of services billed to the contract and contract modifications.

   Verified the unit price charged to the contract and contract modifications.

   Verified the quantities billed to production reports.




                                             B-1
   Determined whether Lockheed submitted the invoice timely.

   Determined whether SSA’s payments were accurate and timely.

To assess the quality of the digital images and the accuracy of billing records, we
performed tests at each of the three scanning facilities. At each site, we randomly
selected 50 boxes of paper documents that were stored at the facility during the 15-day
retention period. We tested 1 document (all documents included multiple pages) from
each box, for a total of 150 documents. For each paper document, we determined
whether (1) all pages in the document had a corresponding digital image, (2) the digital
images were legible, and (3) the number of pages electronically recorded for the imaged
document agreed with the number of pages in the paper document. We did not test the
contractor’s proprietary software used to generate production reports. However, we
determined the data used for this audit were sufficiently reliable to meet our audit
objectives.

The entities audited were Lockheed; the Offices of Acquisition and Grants and Financial
Policy and Operations within the Office of Budget, Finance, and Management; and the
Office of Disability Systems. Our tests of internal controls were limited to gaining an
understanding of laws, regulations and policies that govern the Federal contracting
procedures necessary to address our audit objectives. We conducted the audit
between November 2007 and August 2008 in Atlanta, Georgia; London, Kentucky;
Draper, Utah; and Mt. Vernon, Illinois. The audit was conducted in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




                                          B-2
                                                                    Appendix C

Sampling Methodology
At each of the 3 scanning facilities, we randomly selected 50 boxes of paper documents
that had been scanned and were being stored at the facility during the required 15-day
document retention period. From each box, we selected one document for testing. As
such, we tested 50 documents from each facility for a total of 150 documents. For each
paper document, we performed tests to determine whether (1) all pages in the
document had a corresponding digital image, (2) the digital images were legible, and
(3) the number of pages electronically recorded for the imaged document in Lockheed’s
system agreed with the number of pages in the paper document. We found no errors in
our test sample.

  Scanning           Document            Population      Document          Total
   Facility          Retention           of Storage      Selection        Pages
                       Period              Boxes          Criteria       Reviewed
                 November 9, 2007                           First
  London,
                      through               1,327       Document in       2,654
  Kentucky
                 November 27, 2007                        the Box
                 December 31, 2007                          Fifth
   Draper,
                      through                359        Document in       1,022
    Utah
                  January 14, 2008                        the Box
                 December 31, 2007                          Last
 Mt. Vernon,
                      through                573        Document in       2,027
   Illinois
                  January16, 2008                         the Box
                                                                 Total    5,703
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY
           .

MEMORANDUM

Date:      November 3, 2008                                                      Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      David V. Foster – DVF /s/
           Executive Counselor to the Commissioner

Subject:   Office of the Inspector General (OIG) Draft Report, “Contract with Lockheed Martin
           Government Services, Inc., for Digital Imaging Services” (A-04-08-18066)—INFORMATION


           We appreciate OIG’s efforts in conducting this review. Attached is our response to the
           recommendations.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.


           Attachment




                                                         D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT “CONTRACT WITH LOCKHEED MARTIN GOVERNMENT SERVICES,
INC., FOR DIGITAL IMAGING SERVICES” (A-04-08-18066)

Thank you for the opportunity to review and provide comments on this draft report.

Recommendation 1

Determine whether the requirement to forward all paper documents with a missing or damaged
barcode to the responsible Social Security Administration (SSA) component should be
eliminated.

Comment

We agree. As the report states, we are currently evaluating this recommendation. We will
propose a national pilot that will have Lockheed Martin (LMGS) scan and transmit images of
documents with damaged or missing barcodes to the responsible State disability determination
services (DDS) or SSA component as they currently do. Lockheed will then store these
documents (as they currently do with all imaged documents) for future reference. DDSs and
SSA components will receive that image and index it to the claimant's electronic claim folder.

Recommendation 2

Ensure State DDSs and SSA components review the appropriateness of the forwarding
instructions in their SSA-generated barcode.

Comment

We agree. We are working with the DDSs to ensure the barcodes we generate for electronic
cases are correct so LMGS will not have to forward paper documents to the DDSs.

Recommendation 3

Consider having DDSs and SSA components print the document from the electronic file, in lieu
of LMGS forwarding paper documents, when a paper claims folder is involved.

Comment

We agree and will continue to evaluate this recommendation. While this recommendation would
reduce shipping costs from the contract scanner, it would increase needed resources in the DDSs
and SSA components in order to print and associate the documents with the paper folder. With
each SSA and DDS legacy system's enhancement release, the number of paper cases decrease.
Naturally, as the number of paper cases decrease, the number of documents that must be shipped
from the contract scanner decreases. Because of these scenarios we will evaluate this
recommendation more closely before any final decisions are made.



                                              D-2
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly Byrd, Director, Southern Audit Division, (205) 801-1650

   Frank Nagy, Audit Manager, Atlanta Office of Audit, (404) 562-5552

Acknowledgments

In addition to those named above:

   Teaketa Turner, Senior Auditor

   Mike Leibrecht, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-04-08-18066.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
